Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


  MEDICARE AND BENEFICIARIES
   COULD SAVE MILLIONS IF
   DIALYSIS PAYMENTS WERE
    ADJUSTED FOR ANEMIA
     MANAGEMENT DRUG
         UTILIZATION


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       May 2013
                                                     A-01-12-00522
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 If the Centers for Medicare & Medicaid Services had adjusted the payments for dialysis
 services to reflect calendar year 2011 anemia management drug utilization, we estimated
 that Medicare and beneficiaries could have saved $510 million for erythropoiesis-
 stimulating agents and $19 million for iron supplements.


WHY WE DID THIS REVIEW

In calendar year (CY) 2011, Medicare and beneficiaries paid approximately $10 billion for
dialysis services under a bundled end-stage renal disease (ESRD) prospective payment system
(PPS) that went into effect on January 1, 2011. The anemia management drugs Epogen,
Aranesp, Venofer, and Ferrlecit represent approximately 25 percent of the base rate payment
made to dialysis facilities for each dialysis treatment furnished to a beneficiary. We anticipated
that the claims data the Centers for Medicare & Medicaid Services (CMS) used to calculate the
base rate payment, which reflects CY 2007 utilization of anemia management drugs, would not
reflect CY 2011 utilization because of the change in the payment methodology and because the
Food and Drug Administration recently recommended more conservative dosing of Epogen and
Aranesp. In addition, CMS stated that the change in payment method reduces incentives to
overuse drugs that used to be paid for separately.

The objective of this review was to determine the potential cost savings to Medicare and
beneficiaries of adjusting, or rebasing, the ESRD base rate to reflect CY 2011 utilization of
anemia management drugs Epogen, Aranesp, Venofer, and Ferrlecit.

BACKGROUND

Almost all people with ESRD have anemia. The erythropoiesis-stimulating agent (ESA) drugs
Epogen and Aranesp and the iron supplements Venofer and Ferrlecit were the most commonly
prescribed anemia management drugs in CY 2011. CMS developed the ESRD PPS base rate
using CY 2007 utilization and payment data for ESAs and iron supplements.

Before January 1, 2011, dialysis facilities billed Medicare separately for Epogen, Aranesp,
Venofer, and Ferrlecit, and Medicare made separate payments for them. However, as of that
date, these anemia management drugs are now included in the PPS payment bundle, and
Medicare no longer reimburses dialysis facilities for them separately. To comply with statutory
requirements, CMS used CY 2007 claims and cost report data for ESAs and iron supplements to
calculate the base rate for that payment bundle. As in any PPS, those providing the services—in
this report, dialysis facilities—keep the difference if Medicare payments exceed costs for
bundled services, and they are liable for the difference if the costs exceed Medicare payments.

HOW WE CONDUCTED THIS REVIEW

We reviewed a stratified random sample of dialysis treatments to estimate (1) the difference
between the base rate reimbursement for ESAs and iron supplements and the reimbursement for

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                 i
ESAs and iron supplements actually furnished and (2) the quantities of Epogen, Aranesp,
Venofer, and Ferrlecit actually furnished in CY 2011 and the number of dialysis treatments
furnished in CY 2011.

WHAT WE FOUND

Using our sample results, we estimated that Medicare and beneficiaries could have saved
$510 million for the ESAs Epogen and Aranesp and $19 million for the iron supplements
Venofer and Ferrlecit during CY 2011 if the ESRD base rate had been adjusted to reflect current
utilization of anemia management drugs. In addition, through our analysis of the CY 2011
sample items, we identified limitations that CMS should consider when it relies on ESRD claims
data for program oversight. These limitations include inaccuracies in the quantities of drugs
claimed and the inability to determine the extent of drug waste or overfill usage.

WHAT WE RECOMMEND

We recommend that CMS:

    •   adjust the bundled base rate to realize program savings associated with decreased
        utilization of ESAs and iron supplements;

    •   remind dialysis facilities of the importance of claims accuracy; and

    •   develop new policies, procedures, or other guidance for recording drug waste and overfill
        on ESRD claims.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described corrective actions it had taken and plans to take.




Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                            ii
                                                    TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION....................................................................................................................... 1

      Why We Did This Review ................................................................................................... 1

      Objective............................................................................................................................... 1

      Background .......................................................................................................................... 1
            Dialysis Treatments ................................................................................................... 1
            Dialysis Facilities ...................................................................................................... 2
            Anemia and End-Stage Renal Disease ...................................................................... 2
            Commonly Prescribed Anemia Management Drugs ................................................. 2
            Changes to the End-Stage Renal Disease Payment System ...................................... 3
            Reimbursement for Anemia Management Drugs in the Base Rate ........................... 3
            Food and Drug Administration Safety Concerns about Erythropoiesis-
               Stimulating Agents .............................................................................................. 4
            Medicare Oversight of Erythropoiesis-Stimulating Agents ...................................... 4

      How We Conducted This Review....................................................................................... 6

FINDINGS ................................................................................................................................... 6

      Utilization of Anemia Management Drugs in 2011 Was Significantly
       Less Than the Utilization Reflected in the Base Rate ................................................... 7
              Erythropoiesis-Stimulating Agents ........................................................................... 7
              Iron Supplements ....................................................................................................... 8

      Medicare End-Stage Renal Disease Claims Data Have Limitations
       That Could Impact Program Oversight ......................................................................... 8
            Inaccurate Number of Units Administered Reported ................................................ 8
            Drug Waste Cannot Be Determined .......................................................................... 9
            Overfill Administered Not Disclosed ........................................................................ 9

      Conclusion ............................................................................................................................ 10

RECOMMENDATIONS............................................................................................................ 10

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .......................... 10

APPENDIXES

      A: Reimbursement for Anemia Management Drugs
           Included in the Base Rate ......................................................................................... 11

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                                                           iii
     B: Audit Scope and Methodology ..................................................................................... 14

     C: Sample Design and Methodology ................................................................................. 16

     D: Methodology for Determining Reimbursement ......................................................... 18

     E: Sample Results and Estimates of Cost Savings ........................................................... 20

     F: Estimates of Dialysis Treatments Paid and Units of Drugs Furnished..................... 21

     G: Centers for Medicare & Medicaid Services Comments ............................................ 23




Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                                      iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

In calendar year (CY) 2011, Medicare and beneficiaries paid approximately $10 billion for
dialysis services under a bundled end-stage renal disease (ESRD) prospective payment system
(PPS) that went into effect on January 1, 2011. The anemia management drugs Epogen,
Aranesp, Venofer, and Ferrlecit represent approximately 25 percent of the base rate payment
made to dialysis facilities for each dialysis treatment furnished to a beneficiary. We anticipated
that the claims data the Centers for Medicare & Medicaid Services (CMS) used to calculate the
base rate payment, which reflects CY 2007 utilization of anemia management drugs, would not
reflect CY 2011 utilization because of the change in the payment methodology and because the
Food and Drug Administration (FDA) recently recommended more conservative dosing of
Epogen and Aranesp. In addition, CMS stated that the change in payment method reduces
incentives to overuse drugs that used to be paid for separately.

OBJECTIVE

Our objective was to determine the potential cost savings to Medicare and beneficiaries of
adjusting, or rebasing, the ESRD base rate to reflect CY 2011 utilization of anemia management
drugs Epogen, Aranesp, Venofer, and Ferrlecit.

BACKGROUND

Medicare, which is administered by CMS, provides health insurance coverage to eligible
beneficiaries with ESRD under Title XVIII of the Social Security Act (the Act). Chronic kidney
disease causes reduced kidney function. ESRD, the last stage in chronic kidney disease, is
permanent kidney failure that requires a regular course of maintenance dialysis or a kidney
transplant.

Dialysis Treatments

Dialysis is a treatment that replaces the function of the kidneys by removing waste and excess
water from the body. There are two types of dialysis treatments: hemodialysis and peritoneal
dialysis. In hemodialysis, an artificial kidney is used to remove waste and excess fluid from
blood. Hemodialysis is typically furnished three times a week in 3- to 5-hour sessions. In
peritoneal dialysis, blood is cleaned inside the abdomen (the peritoneal cavity). Peritoneal
dialysis is furnished continuously, rather than as individual sessions.

Medicare covers three dialysis treatments per week. CMS considers each hemodialysis
treatment to be a single dialysis treatment. CMS equates 1 week (7 days) of peritoneal dialysis to
three dialysis treatments. 1


1
 CMS, Medicare Benefit Policy Manual, Pub. 100-02, ch. 11, § 30.1.B; CMS, Medicare Claims Processing
Manual, Pub. No. 100-04, ch. 8, § 80.4.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                   1
Dialysis Facilities

Dialysis facilities provide outpatient dialysis treatments to ESRD patients. Beneficiaries may
receive dialysis either at a Medicare-certified dialysis facility or at home. A dialysis facility can
be either a freestanding unit or a hospital-based facility. There were approximately 5,700
outpatient dialysis facilities in the United States in CY 2011. Freestanding units provided
beneficiaries with approximately 94 percent of dialysis treatments in CY 2011. A small number
of for-profit companies own the majority of dialysis facilities.

Anemia and End-Stage Renal Disease

An individual whose blood is low in oxygen-carrying capacity has anemia. Almost all people
with ESRD have anemia because diseased kidneys generally do not produce enough
erythropoietin, a natural hormone that stimulates the bone marrow to produce red blood cells.
As a result, the bone marrow makes fewer red blood cells, which are needed to carry oxygen to
vital organs.

Dialysis facilities monitor anemia using laboratory tests that measure hemoglobin (the protein
that carries oxygen in red blood cells) and hematocrit (the percentage of red blood cells in whole
blood).

Commonly Prescribed Anemia Management Drugs

Erythropoiesis-stimulating agents (ESA) are drugs used to treat anemia in ESRD patients. These
drugs act similarly to erythropoietin to stimulate the production of red blood cells. There are two
methods of administering ESAs: intravenously and subcutaneously. The intravenous method
requires a larger dose. Drugs in the ESA class are Epogen (epoetin alfa) 2 and Aranesp
(darbepoetin alfa). Medicare covers Epogen and Aranesp for the treatment of anemia associated
with ESRD beneficiaries who are on dialysis.

Many anemic ESRD patients are also treated with iron supplements because iron is necessary for
the production of red blood cells. Medicare covers the iron supplements Venofer (iron sucrose)
and Ferrlecit (sodium ferric gluconate complex) to treat iron-deficiency anemia when they are
furnished to ESRD beneficiaries who are receiving ESA therapy.

Medicare claims data show that Epogen, Aranesp, Venofer, and Ferrlecit were the most
commonly prescribed anemia management drugs in CY 2011. In this report, we refer to the
anemia management drugs by their brand names rather than their generic names.




2
  Epoetin alfa is also available under the brand name Procrit. Amgen, the manufacturer of the drug, has the
exclusive right to promote and sell epoetin alfa, with the brand name of Epogen, for dialysis use in the United States.
Amgen licensed to Johnson & Johnson the exclusive right to promote and sell Procrit for nondialysis use in the
United States. Because the scope of this audit includes only dialysis services, Epogen is used to refer to epoetin alfa
throughout the report.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                                 2
Changes to the End-Stage Renal Disease Payment System

Before January 1, 2011, Medicare used a single payment rate to reimburse dialysis facilities for
the costs of dialysis treatments and certain routine drugs, laboratory tests, and supplies. In
addition, dialysis facilities could receive payments for separately billable injectable drugs, such
as ESAs and iron supplements, and nonroutine laboratory tests.

Effective January 1, 2011, the ESRD PPS combined the single payment rate and separate
reimbursements for dialysis services into a bundled per-treatment base rate. The CY 2011 base
rate for a dialysis treatment was $229.63. Medicare adjusts the base rate for geographic factors,
patient characteristics, and facility characteristics to determine the per-treatment payment to
dialysis facilities. 3 In addition, dialysis facilities that treat beneficiaries with unusually high
resource requirements, measured through the utilization of specific services including ESAs and
iron supplements, are entitled to outlier payments—that is, additional payments beyond the
otherwise applicable PPS payment amounts. After a beneficiary’s Part B deductible 4 is met,
Medicare reimburses dialysis facilities 80 percent of the base rate and all applicable adjustments
for each dialysis treatment furnished. Beneficiaries are responsible for the remaining 20 percent.

The Act required that estimated total payments under the PPS for 2011 be equal to 98 percent of
the estimated total payments for dialysis services, including separately billable drugs, that would
have been made if the ESRD PPS had not been implemented (section 1881(b)(14)(A)(ii)). It also
required Medicare to use per-patient utilization data from 2007, 2008, or 2009, whichever was
lowest, to estimate total 2011 payments. CMS determined that 2007 had the lowest per-patient
utilization of dialysis services included in the ESRD PPS payment bundle and, therefore, used
2007 claims data to develop the base rate.

Reimbursement for Anemia Management Drugs in the Base Rate

The PPS payment bundle includes Epogen, Aranesp, Venofer, and Ferrlecit used to treat
anemia. 5 We calculated that approximately 25 percent of the CY 2011 base rate represented
reimbursement for the ESA drugs Epogen and Aranesp and the iron supplements Venofer and
Ferrlecit. For each treatment furnished, we calculated that the base rate included the
reimbursement amounts in Table 1 for each of the four drugs. 6 We also calculated the quantities

3
  CMS offered dialysis facilities the option to elect to be reimbursed 100 percent by the bundled ESRD PPS and
required facilities to make this election by November 1, 2010. Approximately 87 percent of dialysis facilities
elected this option. CMS uses a blended payment rate (during a 4-year transition period) to reimburse each dialysis
treatment to facilities that did not elect the bundled ESRD PPS payment. The blended payment rate is composed of
(1) the former single payment rate and separate reimbursements and (2) the bundled ESRD PPS payment. In
CY 2011, the first year of the transition period, the blended payment rate was 75 percent of the former single
payment rate and separate reimbursements and 25 percent of the bundled ESRD PPS payment.
4
    In each CY, a cash deductible must be satisfied before payment is made under Medicare Part B.
5
 The CY 2011 payment bundle also includes calcitriol, doxercalciferol, paricalcitol, levocarnitine, alteplase,
vancomycin, and daptomycin (generic drug names).
6
    We used information from the Federal Register, Volume 75, No. 155, Aug. 12, 2010.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                                  3
of the drugs reflected in these reimbursement amounts (Table 1 and Appendix A).

                      Table 1: Anemia Management Drugs in the Base Rate

                  Per-Treatment                                         Per-Treatment
                  Reimbursement               Quantity of the            Billing Units
                  Included in the            Drug Reflected in          Reflected in the       Reimbursement
     Drug           Base Rate                 the Base Rate               Base Rate 7          per Billing Unit
    Epogen            $49.88                      5,570.00 units             55.70                  $0.896
    Aranesp            $3.79                   1.39 micrograms                 1.39                 $2.727
    Venofer            $4.23                   12.23 milligrams              12.23                  $0.346
    Ferrlecit          $1.69                    4.88 milligrams                0.39                 $4.333

The bundled ESRD PPS addresses congressional concerns about Medicare expenditures for
separately billable services and the overutilization of ESA drugs by creating an incentive to
furnish dialysis services more efficiently. As in any PPS, those providing the services—in this
report, dialysis facilities—keep the difference if Medicare payments exceed costs for bundled
services, and they are liable for the difference if the costs exceed Medicare payments.

Food and Drug Administration Safety Concerns About Erythropoiesis-Stimulating Agents

FDA first approved Epogen for the treatment of anemia in 1989 and approved Aranesp in 2001.
The product labels for these drugs have been updated several times to incorporate new safety
information. FDA approved new labeling for both drugs in March 2007 that included a warning
that ESAs increased patients’ risk for death and serious cardiovascular events when they are
dosed to achieve a target hemoglobin of greater than 12 g/dL. FDA-approved labels for Epogen
and Aranesp in November 2007 recommended individualized dosing of these drugs to maintain a
patient’s hemoglobin within a target range of 10 to 12 g/dL.

On June 24, 2011, FDA recommended more conservative dosing of ESAs in patients with
chronic kidney disease because of more data showing this population had increased risk of
cardiovascular events when using ESAs. For patients with chronic kidney disease on dialysis,
the FDA-approved labels for Epogen and Aranesp now recommend that health care professionals
initiate ESA treatment when the hemoglobin level is less than 10 g/dL. The FDA-approved
labels recommend that if the hemoglobin level approaches or exceeds 11 g/dL, the dose be
reduced or interrupted. The recommendation that ESAs be dosed to achieve and maintain a
hemoglobin level within the target range of 10 to 12 g/dL has been removed from the label.

Medicare Oversight of Erythropoiesis-Stimulating Agents

Emerging scientific data on the use of ESAs prompted CMS to expand its ESA-monitoring


7
  Dialysis facilities record anemia management drugs on their Medicare claims using the appropriate Healthcare
Common Procedure Coding System (HCPCS) code and bill the units of service in multiples of the units shown in
the HCPCS narrative description.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                             4
policy, effective January 1, 2008. 8 Under this policy, Medicare reduces payment for ESAs by
25 percent if (1) a beneficiary’s reported hemoglobin is greater than 13 g/dL (or hematocrit is
greater than 39 percent) and (2) the dialysis facility does not indicate on its Medicare claim that
it had applied and maintained appropriate dose reductions. Medicare reduces payments for ESAs
by 50 percent if a beneficiary’s reported hemoglobin exceeds 13 g/dL (or hematocrit exceeds
39 percent) for 3 or more consecutive months. 9

In addition, medically unlikely edits 10 limit payment for Epogen to a maximum dosage of
400,000 units per month and payment for Aranesp to a maximum dosage of 1,200 micrograms
per month. 11 The ESA-monitoring policy does not apply to home dialysis patients who
self-administer ESAs.

The Act required that CMS implement an ESRD Quality Incentive Program (QIP) (section
1881(h)). Under the QIP, dialysis facilities that do not meet or exceed established performance
measures will be paid up to 2 percent less for their services. The Act also requires that the
established performance measures include “measures on anemia management that reflect the
labeling approved by the Food and Drug Administration for such management …” (section
1881(h)(2)(A)).

Reductions apply to payments for dialysis services furnished on or after January 1, 2012. The
anemia management performance measures that determined 2012 payment reductions were the
(1) percentage of beneficiaries whose average hemoglobin levels were less than 10 g/dL and
(2) percentage of patients whose average hemoglobin levels were greater than 12 g/dL; a lower
percentage for each of these measures indicates better performance. These performance
measures reflect the November 2007 FDA-approved labeling for ESAs. To have received full
payment, dialysis facilities must have met or exceeded the performance standard for each quality
measure during the CY 2010 performance period.

Although CMS did not publish the QIP proposed and final regulations until mid-2010 and
early-2011 and CMS measured the performance for 2010, the legislation that implemented the


8
 See CMS, “Modification to the National Monitoring Policy for Erythropoietic Stimulating Agents (ESAs) for End-
Stage Renal Disease (ESRD) Patients Treated in Renal Dialysis Facilities,” Medicare Claims Processing Manual,
Transmittal 1307 (Change Request 5700; July 20, 2007).
9
  Dialysis facilities are required to report hemoglobin or hematocrit levels for their beneficiaries receiving ESAs on
their Medicare claims for payment. See the Medicare Claims Processing Manual, Pub. 100-04, ch. 8, §§ 60.4 and
60.7.
10
  Medically unlikely edits identify claims before they are processed by CMS for payment that have ESAs in excess
of the maximum dosages and return these claims to providers for correction.
11
  CMS’s previous national ESA-monitoring policy, implemented in April 2006, reduced payment for ESAs by
25 percent if a beneficiary’s reported hemoglobin was greater than 13 g/dL (or hematocrit was greater than
39 percent) and the dialysis facility did not indicate that the ESA dosage had been reduced and maintained. The
medically unlikely edits limited payment for Epogen to a maximum dosage of 500,000 units per month and payment
for Aranesp to a maximum dosage of 1,500 micrograms per month.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                                     5
QIP was enacted in July 2008. 12 Therefore, dialysis facilities could have reasonably expected
that 2012 performance measures would have reflected FDA-approved labeling in effect during
the CY 2010 performance period.

HOW WE CONDUCTED THIS REVIEW

We used CMS’s National Claims History file to identify CY 2011 dialysis treatments reimbursed
under the ESRD PPS and grouped those treatments by beneficiary and calendar month
(beneficiary-month). 13 Using medical records, we reviewed a stratified random sample of 180
beneficiary-months to determine the number of paid dialysis treatments and the quantities of any
Epogen, Aranesp, Venofer, and Ferrlecit administered to the beneficiaries. We used our sample
results to estimate (1) the difference between the base rate reimbursement for ESAs and iron
supplements and the reimbursement for ESAs and iron supplements actually furnished and
(2) the quantities of Epogen, Aranesp, Venofer, and Ferrlecit actually furnished by dialysis
facilities in CY 2011 and the number of dialysis treatments furnished by dialysis facilities in
CY 2011. Our objective did not require that we identify or review any internal controls or that
we determine whether the Medicare payments for the dialysis treatments were appropriate. Our
review enabled us to establish reasonable assurance of the authenticity and accuracy of the data
obtained from the National Claims History file, but we did not assess the completeness of the
file.

Our fieldwork consisted of contacting the dialysis facilities that billed for the beneficiary-months
we sampled. We also contacted CMS officials. We conducted our fieldwork from August
through October 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, Appendix C contains our
statistical sampling methodology, Appendix D contains our methodology for determining
reimbursement for anemia management drugs, and Appendixes E and F contain our sample
results and estimates.

                                                   FINDINGS

Using our sample results, we estimated that Medicare and beneficiaries could have saved
$510 million for the ESAs Epogen and Aranesp and $19 million for the iron supplements

12
 Section 1881(h) of the Act was added by section 153(c) of the Medicare Improvements for Patients and Providers
Act of 2008 (P.L. No. 110-275), which was enacted on July 15, 2008.
13
  Each hemodialysis treatment was considered a single dialysis treatment. We converted peritoneal dialysis to
dialysis treatments by dividing the number of days peritoneal dialysis was billed during a beneficiary-month by 7
and multiplying the result by 3.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                                6
Venofer and Ferrlecit during CY 2011 if the ESRD base rate had been adjusted to reflect current
utilization of anemia management drugs. During CY 2011, the average per-treatment utilization
of these anemia management drugs was generally significantly less than the quantities of these
drugs reflected in the base rate.

In addition, through our analysis of the CY 2011 sample items, we identified limitations that
CMS should consider when it relies on ESRD claims data for program oversight. These
limitations include inaccuracies in the quantities of drugs claimed and the inability to determine
the extent of drug waste or overfill usage.

UTILIZATION OF ANEMIA MANAGEMENT DRUGS IN 2011 WAS SIGNIFICANTLY
LESS THAN THE UTILIZATION REFLECTED IN THE BASE RATE

Erythropoiesis-Stimulating Agents

The average per-treatment utilization of Epogen and Aranesp was significantly less than the
quantities of these drugs reflected in the base rate. We estimated that the average per-treatment
utilization of Epogen was 4,342.41 units, 22 percent less than the quantity reflected in the base
rate. We estimated that the average per-treatment utilization of Aranesp was 0.529 micrograms,
62 percent less than the quantity reflected in the base rate (Table 2).

       Table 2: Erythropoiesis-Stimulating Agents in the Base Rate Compared With
                             Calendar Year 2011 Utilization

                    Quantity of the Drug             Estimated CY 2011
                       Reflected in                     Average per
       Drug           the Base Rate                 Treatment Utilization       Difference
      Epogen                 5,570.00 units                   4,342.41 units   (22 percent)
      Aranesp             1.39 micrograms                 0.529 micrograms     (62 percent)

Using our sample results, we estimated that Medicare and beneficiaries could have saved
$510 million during CY 2011 if the ESRD base rate had been adjusted to reflect current
utilization of Epogen and Aranesp.

To comply with the Act, CMS developed the base rate using CY 2007 claims and cost report
data. However, officials from many of the dialysis facilities in our sample indicated that ESA
utilization had decreased since 2007 because of FDA recommendations and new safety warnings
for Epogen and Aranesp. Some facilities also cited the ESA-monitoring policy and the QIP,
which were designed to prevent overutilization of ESAs and to improve quality of care, as
contributing to decreased utilization.

On the basis of our review of the medical records for the 180 sample items, we determined that
dialysis facilities furnished ESAs to beneficiaries intravenously for 74 percent of the sample
items and subcutaneously for 15 percent of the sample items. For 11 percent of the sample
items, beneficiaries did not receive any ESAs.


Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                 7
Iron Supplements

The average per-treatment utilization of Ferrlecit was significantly lower than the quantity
reflected in the base rate, even though the average per-treatment utilization of Venofer was
higher than the quantity of Venofer reflected in the base rate.

We estimated that the average per-treatment utilization of Ferrlecit was 2.36 milligrams,
51.6 percent less than the quantity reflected in the base rate. We estimated that the average per
treatment utilization of Venofer was 13.29 milligrams, 8.7 percent higher than the quantity
reflected in the base rate (Table 3).

                 Table 3: Iron Supplements in the Base Rate Compared With
                               Calendar Year 2011 Utilization

                    Quantity of the Drug             Estimated CY 2011
                        Reflected in                    Average per
       Drug           the Base Rate                 Treatment Utilization        Difference
     Ferrlecit          4.88 milligrams                2.36 milligrams         (51.6 percent)
     Venofer           12.23 milligrams               13.29 milligrams           8.7 percent

Using the results of our sample, we estimated that Medicare and beneficiaries could have saved
$19 million during CY 2011 if the ESRD base rate had been adjusted to reflect current utilization
of Venofer and Ferrlecit.

Officials from dialysis facilities in our sample indicated that the use of iron supplements varies,
depending on clinical practices and patients’ response.

MEDICARE END-STAGE RENAL DISEASE CLAIMS DATA HAVE LIMITATIONS
THAT COULD IMPACT PROGRAM OVERSIGHT

CMS relies on Medicare claims data to develop new and adjust existing payment systems, to
monitor payment systems and implementation of policies, and to calculate Medicare payments to
providers. Through our analysis of the CY 2011 sample items, we identified the following
limitations that CMS should consider when it relies on ESRD claims data.

Inaccurate Number of Units Administered Reported

The amounts of anemia management drugs billed on Medicare claims did not always match the
amounts documented in the medical records. Facility medical records showed that for 8 percent
of the sample items from freestanding facilities, the amounts of Epogen, Venofer, or Ferrlecit
billed did not match the amounts administered, resulting in a net overstatement of the amounts
billed. For 20 percent of the sample items from hospital-based facilities, the amounts of Epogen,
Aranesp, or Ferrlecit billed did not match the amounts administered, resulting in a net
overstatement of the amounts of Epogen billed and a net understatement of the amounts of
Aranesp and Ferrlecit billed.


Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                  8
Drug Waste Cannot Be Determined

When a provider must discard the remainder of a single-use vial or package after administering a
dose of a drug to a Medicare beneficiary, Medicare pays for the amount of drug discarded as well
as the dose administered, up to the amount of the drug as indicated on the vial. CMS allows
Medicare contractors, which process claims for CMS, to decide whether to require providers to
use the modifier JW on claims to identify discarded drugs from single-use vials or packages. For
example, from a single-use vial labeled to contain 50 billable units of a drug, 25 units are
administered to the beneficiary and 25 units are discarded. The 25-unit dose would be billed on
1 claim line, while the discarded 25 units would be billed on another claim line using the JW
modifier (Medicare Claims Processing Manual, Pub. No. 100-04, ch. 17, § 40). If the modifier
is not required, then the total amount of the drug administered and discarded would be billed on
one claim line. Although Medicare no longer pays for ESRD drugs separately, use of the JW
modifier enables CMS to monitor drug waste and identify issues that may affect Medicare
reimbursement, such as changes in packaging that may increase or decrease costs to providers or
manipulation of billed drug waste to qualify for outlier payments.

Venofer is available only in single-use vials. None of the eight dialysis facilities in our sample
with discarded amounts of Venofer used the JW modifier on their Medicare claims. In all
instances, the total amount of the drug administered and discarded was billed on one claim line,
and CMS cannot determine from the claims data the extent to which these dialysis facilities
actually administered or discarded Venofer.

Overfill Administered Not Disclosed

Manufacturers may intentionally include excess product, or overfill, in drug containers to
compensate for product loss during the proper preparation and administration of a drug.
However, Medicare payment is based on the amount of drug indicated on the FDA-approved
labeling, and providers may not bill Medicare for any overfill administered to patients. In
November 2011, CMS advised dialysis facilities that it had incorporated its overfill policy into
its ESRD outlier policy and that it would be using the overfill policy to determine blended
payments under the ESRD PPS transition. This overfill policy instructs dialysis facilities to
report only units and charges for ESRD-related drugs and biologicals actually purchased, as
indicated on the FDA-approved labeling. 14 Facilities that do not follow the overfill policy could
receive overpayments.

Dialysis facilities for 78 percent of sample items indicated that they used all the available
product in a vial when administering drugs to patients. Dialysis facilities in our sample reported
the dose of the drugs actually furnished to beneficiaries on their Medicare claims. However,
only one chain of dialysis facilities developed a methodology to disclose on its Medicare claims
what portion of the dose represented overfill.




14
     76 Fed. Reg. 70228, 70243-70244 (Nov. 10, 2011).

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                 9
CONCLUSION

We recognize that CMS faced numerous challenges when developing the bundled ESRD PPS.
CMS was required to balance the needs of highly vulnerable beneficiaries with those of the
dialysis industry, in which a small number of for-profit companies own the majority of facilities.
In addition, to comply with statutory requirements, CMS developed the base rate using
utilization data from CY 2007. However, the utilization of anemia management drugs during
this year could not have fully reflected the impact of new safety data, changes to Medicare
policies and programs to address overutilization of ESAs and quality of care, and the incentive to
furnish services more efficiently under the PPS. Further, while ESRD claims data may represent
the best information available to develop the base rate and to monitor effects of the PPS, these
data have limitations.

We validated ESRD claims data, and our results show that Medicare and beneficiaries could
have saved a significant amount if the base rate had been adjusted to reflect CY 2011 utilization
of anemia management drugs. These results are consistent with those of a recent Government
Accountability Office (GAO) report that examined trends in the utilization of ESRD drugs from
2007 through 2011 using ESRD claims data. 15 In late December 2012, Congress passed
legislation requiring that the base rate be reduced to reflect changes in the utilization of ESRD
drugs (American Taxpayer Relief Act of 2012, section 632(a)). Preliminary analysis of ESRD
claims data indicate that per-treatment utilization of ESAs and iron supplements continued to
decline during the first 8 months of CY 2012.

                                       RECOMMENDATIONS

We recommend that CMS:

     •   adjust the bundled base rate to realize program savings associated with decreased
         utilization of ESAs and iron supplements;

     •   remind dialysis facilities of the importance of claims accuracy; and

     •   develop new policies, procedures, or other guidance for recording drug waste and overfill
         on ESRD claims.

           CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described corrective actions it had taken and plans to take.

CMS’s comments are included in their entirety as Appendix G.



15
  End-Stage Renal Disease: Reduction in Drug Utilization Suggests Bundled Payment Is Too High
(GAO-13-190R), December 7, 2012.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                            10
           APPENDIX A: REIMBURSEMENT FOR ANEMIA MANAGEMENT DRUGS
                           INCLUDED IN THE BASE RATE

To calculate reimbursement for Epogen, Aranesp, Venofer, and Ferrlecit included in the
CY 2011 base rate, we followed CMS’s methodology for developing the rate. 16

CMS developed the CY 2011 base rate using CY 2007 Medicare allowable payment amounts for
each service included in the ESRD PPS payment bundle, including Epogen, Aranesp, Venofer,
and Ferrlecit, as well as the number of CY 2007 dialysis treatments (section 1881(b)(14)(A)(ii)
of the Act). The per-treatment base rate represents the sum of the Medicare allowable payments
for each service divided by the corresponding number of dialysis treatments.

To determine the CY 2007 Medicare allowable payment per treatment attributable to Epogen,
Aranesp, Venofer, and Ferrlecit, we divided each drug’s total CY 2007 Medicare allowable
payments by the number of CY 2007 dialysis treatments (Table 1).

               Table 1: Calendar Year 2007 MedicareAllowable Payments per Treatment

                              CY 2007                Divided by:                      Equals:
                           Total Medicare          CY 2007 Dialysis          CY 2007 Average Medicare
            Drug        Allowable Payments 17       Treatments 18         Allowable Payment per Treatment
           Epogen          $1,876,926,573             36,747,662                       $51.08
           Aranesp           $167,935,970             36,747,662                        $4.57
           Venofer           $166,219,339             36,747,662                        $4.52
           Ferrlecit          $68,086,707             36,747,662                        $1.85

To arrive at the CY 2011 base rate, CMS adjusted the CY 2007 Medicare allowable payment
amounts for each service included in the base rate to reflect estimated CY 2011 prices. In
addition, the ESRD PPS had to be 98 percent budget neutral in 2011 (section 1881(b)(14)(A)(ii)
of the Act). That is, the estimated total payments for CY 2011 under the PPS must equal
98 percent of the estimated total payments for dialysis services that would have been made if the
PPS had not been implemented. CMS applied the following adjustments to the base rate to
comply with this requirement:

       •     a standardization adjustment of 94.07 percent to ensure that total projected PPS payments
             were equal to estimated total payments for dialysis services that would have been made if
             the PPS had not been implemented,

       •     a 99-percent adjustment to ensure that the ESRD PPS outlier policy was budget neutral,
             and


16
  We did not round the results at each step of our calculations; however, we rounded the amounts in this Appendix
for clarity of presentation.
17
     75 Fed. Reg. 49030, 49068 (Aug. 12, 2010).
18
     75 Fed. Reg. at 49068.

Medicare and Beneficiaries Could Save Millions If Dialysis
Payments Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                   11
       •    a 98-percent adjustment to account for the budget neutrality requirement.

To calculate the Medicare allowable payment (or reimbursement) per treatment for Epogen,
Aranesp, Venofer, and Ferrlecit included in the CY 2011 base rate, we applied CMS’s
adjustments to the CY 2007 average Medicare allowable payment per treatment for each of the
four drugs (Table 2).

                          Table 2: Medicare Allowable Payments per Treatment
                                   in the Calendar Year 2011 Base Rate

                   CY 2007      Multiplied                                             Multiplied          Equals:
                   Average          by:                                                 by: 98-           Medicare
                  Medicare      Adjustment                           Multiplied         Percent        Reimbursement
                  Allowable     To Reflect       Multiplied by:         by:             Budget         per Treatment
                 Payment per     Estimated      Standardization       Outlier          Neutrality        in CY 2011
 Drug             Treatment    2011 Prices 19    Adjustment 20      Adjustment 21     Adjustment 22       Base Rate
Epogen              $51.08          1.070            0.9407             0.99              0.98              $49.88
Aranesp              $4.57          0.910            0.9407             0.99              0.98               $3.79
Venofer              $4.52          1.026            0.9407             0.99              0.98               $4.23
Ferrlecit            $1.85          0.998            0.9407             0.99              0.98               $1.69
 Total                                                                                                      $59.59

Total reimbursement for the four anemia management drugs ($59.59) is approximately
25 percent of the CY 2011 base rate of $229.63.

Dialysis facilities record anemia management drugs on their Medicare claims using the
appropriate HCPCS code and bill the units of service in multiples of the units shown in the
HCPCS narrative description. The HCPCS codes and narrative descriptions for Epogen,
Aranesp, Venofer, and Ferrlecit are shown below (Table 3).

                     Table 3: Healthcare Common Procedure Coding System Codes
                                      and Narrative Descriptions

      Drug           HCPCS     HCPCS Narrative Description
     Epogen          Q4081     Injection, epoetin alfa, 100 units
     Aranesp          J0882    Injection, darbepoetin alfa, 1 microgram (mcg)
     Venofer          J1756    Injection, iron sucrose, 1 milligram (mg)
     Ferrlecit        J2916    Injection, sodium ferric gluconate complex in sucrose injection, 12.5 milligrams (mg)

To calculate the quantities of Epogen, Aranesp, Venofer, and Ferrlecit reflected in the base rate,
we divided the CY 2007 average Medicare allowable payment per treatment by the average

19
     75 Fed. Reg. at 49080.
20
     75 Fed. Reg. at 49081.
21
     75 Fed. Reg. at 49082.
22
     75 Fed. Reg. at 49082.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                               12
CY 2007 payment for a single HCPCS unit (or billing unit) to determine the number of billing
units reflected in the base rate. We multiplied the number of billing units reflected in the base
rate by the quantity of the drug indicated in the HCPCS narrative description to calculate the
quantity of each drug reflected in the CY 2011 base rate (Table 4).

                      Table 4: Quantities of Drugs Reflected in the Base Rate

                    CY 2007
                    Average            Divided by:              Equals:         Multiplied by:
                   Medicare          CY 2007 Average          Number of          Quantity of            Equals:
                   Allowable          Payment for a          Billing Units        Drug in             Quantity of
                  Payment per         Single Billing        Reflected in the      HCPCS             Drug Reflected
      Drug         Treatment              Unit 23             Base Rate          Description       in the Base Rate
     Epogen          $51.08              $0.9170                  55.70           100 units             5,570 units
     Aranesp          $4.57              $3.2900                   1.39               1 mcg               1.39 mcg
     Venofer          $4.52              $0.3697                  12.23                1 mg               12.23 mg
     Ferrlecit        $1.85              $4.7578                   0.39            12.5 mg                 4.88 mg

We calculated each drug’s reimbursement per billing unit in the CY 2011 base rate by dividing
the Medicare allowable payment per treatment included in the CY 2011 base rate by the number
of billing units reflected in the base rate (Table 5).

Table 5: Reimbursement per Billing Unit in the Calendar Year 2011 Base Rate

                         Medicare                      Divided by:
                     Reimbursement              Number of Billing Units                     Equals:
                     per Treatment in         Reflected in the CY 2011 Base            Reimbursement per
      Drug          CY 2011 Base Rate                      Rate                           Billing Unit
     Epogen               $49.88                            55.70                            $0.896
     Aranesp               $3.79                             1.39                            $2.727
     Venofer               $4.23                            12.23                            $0.346
     Ferrlecit             $1.69                             0.39                            $4.333




23
  In CY 2007, Medicare paid dialysis facilities 106 percent of the appropriate average sales price (ASP) for each
separately billable drug furnished. CY 2007 quarterly ASP payment limits are available online at
http://www.cms.gov/Medicare/Medicare-Fee-for-Service-Part-B-
Drugs/McrPartBDrugAvgSalesPrice/01b_2007aspfiles.html. Accessed November 9, 2012.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                                13
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our nationwide audit covered 3,070,158 beneficiary-months with 37,279,226 dialysis treatments
valued at $9,031,065,241. 24 Our objective did not require that we identify or review any internal
controls or that we determine whether the Medicare payments for the dialysis treatments were
appropriate. Our objective also did not require that we determine dialysis facilities’ acquisition
costs for anemia management drugs. The Office of Inspector General is conducting a separate
evaluation of acquisition costs for ESRD drugs included in the PPS payment bundle. Our review
enabled us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file, but we did not assess the completeness of the file.

Our fieldwork consisted of contacting the dialysis facilities that billed for the beneficiary-months
we sampled and contacting CMS officials. We conducted our fieldwork from August through
October 2012.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   interviewed CMS officials;

     •   held discussions with GAO staff regarding their legislatively mandated analysis of
         changes in ESA utilization under the ESRD PPS that was required by the Medicare
         Improvements for Patients and Providers Act of 2008 (section 153(d)(1));

     •   used CMS’s National Claims History file to identify CY 2011 dialysis treatments
         reimbursed under the ESRD PPS and grouped those treatments by beneficiary-months;

     •   identified 2 strata from which we selected our sample items (stratum 1 contained
         2,889,908 beneficiary-months with dialysis treatments furnished by freestanding
         facilities, and stratum 2 contained 180,250 beneficiary-months with dialysis treatments
         furnished by hospital-based facilities);

     •   selected a stratified random sample of 180 beneficiary-months: 150 from stratum 1 and
         30 from stratum 2 (Appendix C);

     •   contacted officials from 179 dialysis facilities that billed for dialysis treatments furnished
         during the 180 sampled beneficiary-months and obtained payment and medical records to


24
  Each hemodialysis treatment was considered a single dialysis treatment. We converted peritoneal dialysis to
dialysis treatments by dividing the number of days peritoneal dialysis was billed during a beneficiary-month by 7
and multiplying the result by 3.

Medicare and Beneficiaries Could Save Millions If Dialysis
Payments Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                       14
         validate the number of paid treatments and the dosages of any Epogen, Aranesp, Venofer,
         and Ferrlecit administered to the beneficiaries;

     •   calculated the amount that the dialysis facilities were reimbursed under the base rate for
         ESAs and iron supplements on the basis of the number of paid dialysis treatments for
         each of the sample items (Appendix D);

     •   calculated reimbursement for ESAs and iron supplements that dialysis facilities actually
         furnished on the basis of the medical records for each sample item 25 (Appendix D);

     •   used our sample results to (1) estimate the difference between the base rate
         reimbursement for ESAs and iron supplements and the reimbursement for ESAs and iron
         supplements actually furnished and (2) estimate the quantities of Epogen, Aranesp,
         Venofer, and Ferrlecit furnished by dialysis facilities in CY 2011 and the number of
         dialysis treatments furnished by dialysis facilities in CY 2011 (Appendix E);

     •   discussed the results of our review with CMS officials; and

     •   briefed staff members of the House of Representatives Ways and Means Health
         Subcommittee, at their request, about this audit. 26

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




25
  Amounts actually furnished include the dose of drug administered and the amount of drug discarded (if any) from
a single-use vial, up to the amount of the drug as indicated on the vial used.
26
  Because our report had not been issued to CMS for formal comment, we could not discuss specific information
concerning our findings and recommendations. However, we did indicate to Subcommittee staff that our findings
were consistent with a recommendation to rebase the base rate.

Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                            15
                   APPENDIX C: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of nationwide Medicare outpatient dialysis claims for CY 2011.

SAMPLING FRAME

The sampling frame was an Access database of 3,070,158 beneficiary-months that contained
37,279,226 dialysis treatments 27 with payments totaling $9,031,065,241. Each beneficiary-
month met the following conditions:

     •   contained treatments furnished only by providers being 100-percent reimbursed under the
         ESRD PPS;

     •   contained treatments furnished by only 1 type of dialysis facility, either hospital based or
         freestanding;

     •   contained treatments furnished by no more than 2 different dialysis facilities; and

     •   contained between 3 and 14 dialysis treatments (inclusive).

SAMPLE UNIT

The sample unit was a beneficiary-month.

SAMPLE DESIGN

Our sample design was a stratified random sample with the following two strata:

                                                                  Medicare- and
                                                                   Beneficiary-
                           Type of            Number of          Paid Amount for            Number of
                           Dialysis           Beneficiary-            Dialysis               Dialysis
         Stratum           Facility             Months              Treatments              Treatments
            1           Freestanding           2,889,908          $8,485,861,648            35,074,831
             2          Hospital Based            180,250             545,203,593             2,204,395
           Total                                3,070,158         $9,031,065,241             37,279,226




27
  Each hemodialysis treatment was considered a single dialysis treatment. We converted peritoneal dialysis to
dialysis treatments by dividing the number of days peritoneal dialysis was billed during a beneficiary-month by 7
and multiplying the result by 3.


Medicare and Beneficiaries Could Save Millions If Dialysis
Payments Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                       16
SAMPLE SIZE

We randomly selected 150 beneficiary-months from stratum 1 and 30 beneficiary-months from
stratum 2. Our total sample size was 180 beneficiary-months.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate the random numbers for each stratum.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in each stratum. After generating 150 random
numbers for stratum 1 and 30 random numbers for stratum 2, we selected the corresponding
frame items for review.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate (1) the dollar value of potential cost savings for
reimbursement of ESAs and iron supplements furnished by dialysis facilities in CY 2011 and
(2) the quantity of billing units of Epogen, Aranesp, Venofer, and Ferrlecit furnished in CY 2011
and the number of dialysis treatments furnished by dialysis facilities in CY 2011. We used the
estimates of billing units and treatments to estimate the average quantity of billing units of each
drug furnished per dialysis treatment.




Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                             17
      APPENDIX D: METHODOLOGY FOR DETERMINING REIMBURSEMENT

REIMBURSEMENT UNDER THE BASE RATE

For each sample item, we determined the number of paid dialysis treatments from the dialysis
facility’s payment records. We multiplied the number of paid treatments by the Medicare
reimbursement per treatment in the CY 2011 base rate (Appendix A) for each drug to calculate
the dialysis facility’s reimbursement for ESAs and iron supplements under the base rate.

For example, if a sample item represented 13 paid dialysis treatments, we calculated ESA and
iron supplement reimbursement under the base rate as follows:

                                                       Multiplied by:
                                                          Medicare
                                                       Reimbursement
                                        Sample         per Treatment               Equals:
                                       Item Paid         in CY 2011            Reimbursement
                 Drug                 Treatments          Base Rate           Under the Base Rate
     Epogen                               13               $49.88                  $648.44
     Aranesp                              13                 $3.79                   $49.27
     ESA Reimbursement                                                             $697.71
     Venofer                               13                 $4.23                  $54.99
     Ferrlecit                             13                 $1.69                  $21.97
     Iron Supplement
     Reimbursement                                                                      $76.96

REIMBURSEMENT FOR DRUGS ACTUALLY FURNISHED

For each sample item, we determined the number of billing units of Epogen, Aranesp, Venofer,
and Ferrlecit actually furnished to the beneficiary using the dialysis facility’s medical records. 28
We multiplied the number of billing units of each drug that were actually furnished by the
reimbursement per billing unit in the CY 2011 base rate (Appendix A) to calculate the dialysis
facility’s reimbursement for ESAs and iron supplements actually furnished.

For example, if the medical records for a sample item indicated that the patient received 650
billing units of Epogen and 200 billing units of Venofer, we calculated reimbursement for the
ESAs and iron supplements actually furnished as follows:




28
   Amounts actually furnished include the dose of drug administered and the amount of drug discarded (if any) from
a single-use vial, up to the amount of the drug as indicated on the vial used.

Medicare and Beneficiaries Could Save Millions If Dialysis
Payments Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                                   18
                                                   Multiplied by:
                                                      Medicare
                                                   Reimbursement            Equals:
                                    Billing        per Billing Unit    Reimbursement For
                                     Units           in CY 2011           Billing Units
               Drug                Furnished          Base Rate            Furnished
     Epogen                           650              $0.896               $582.40
     Aranesp                             0             $2.727                  $0.00
     ESA Reimbursement                                                      $582.40
     Venofer                            200             $0.346                $69.20
     Ferrlecit                            0             $4.333                 $0.00
     Iron Supplement
     Reimbursement                                                           $69.20




Medicare and Beneficiaries Could Save Millions If Dialysis Payments
Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                       19
         APPENDIX E: SAMPLE RESULTS AND ESTIMATES OF COST SAVINGS

                                Erythropoiesis-Stimulating Agents
                                        Sample Results

                                                                           Number of        Value of
                Frame          Value of         Sample      Value of     Reimbursement   Reimbursement
 Stratum          Size          Frame            Size       Sample         Differences     Differences
     1         2,889,908    $8,485,861,648        150       $100,608           150          $25,022
     2           180,250       545,203,593         30         19,613            30             4,704
   Total       3,070,158    $9,031,065,241        180       $120,221           180          $29,726

                                    Estimated Cost Savings
                      (Limits Calculated for a 90-Percent Confidence Level)

                                    Point Estimate       $510,329,453
                                     Lower Limit         $260,234,832
                                      Upper Limit        $760,424,073



                                             Iron Supplements
                                              Sample Results

                                                                           Number of        Value of
                               Value of         Sample      Value of     Reimbursement   Reimbursement
 Stratum      Frame Size        Frame            Size       Sample         Differences     Differences
    1          2,889,908    $8,485,861,648        150        $11,097           150              $723
    2            180,250       545,203,593         30          2,163            30               895
  Total        3,070,158    $9,031,065,241        180        $13,260           180            $1,618


                                    Estimated Cost Savings
                      (Limits Calculated for a 90-Percent Confidence Level)

                                   Point Estimate          $19,315,597
                                    Lower Limit          ($11,198,547)
                                     Upper Limit           $49,829,742




Medicare and Beneficiaries Could Save Millions If Dialysis
Payments Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                       20
             APPENDIX F: ESTIMATES OF DIALYSIS TREATMENTS PAID
                       AND UNITS OF DRUGS FURNISHED


                                DIALYSIS TREATMENTS PAID

                                                                        Number of
Stratum           Frame Size                Sample Size                 Treatments
   1               2,889,908                   150                         1,875
   2                 180,250                    30                           365
 Total             3,070,158                   180                         2,240

                                    Estimated Treatments Paid

                                     Point Estimate 38,311,203




                                              ARANESP

Stratum           Frame Size                Sample Size              Number of Units
   1               2,889,908                   150                          25
   2                 180,250                    30                       3,290
 Total             3,070,158                   180                       3,315

                              Estimated Units of Aranesp Furnished

                                     Point Estimate 20,249,068




                                               EPOGEN

Stratum           Frame Size                Sample Size              Number of Units
   1               2,889,908                   150                      84,284
   2                 180,250                    30                       6,626
 Total             3,070,158                   180                      90,910

                               Estimated Units of Epogen Furnished

                                    Point Estimate 1,663,631,256




Medicare and Beneficiaries Could Save Millions If Dialysis
Payments Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)          21
                                                FERRLECIT

   Stratum           Frame Size                Sample Size                Number of Units
      1               2,889,908                   150                           330
      2                 180,250                    30                           145
    Total             3,070,158                   180                           475

                                 Estimated Units of Ferrlecit Furnished

                                         Point Estimate 7,229,006




                                                 VENOFER

   Stratum           Frame Size                Sample Size                Number of Units
      1               2,889,908                   150                        25,850
      2                 180,250                    30                         1,850
    Total             3,070,158                   180                        27,700

                                 Estimated Units of Venofer Furnished

                                        Point Estimate 509,142,895




      ESTIMATES OF UNITS OF DRUGS FURNISHED PER DIALYSIS TREATMENT

                                  Aranesp               Epogen              Ferrlecit          Venofer
Estimated Billing Units             20,249,068       1,663,631,256             7,229,006        509,142,895
Divide Units by:
Estimated Treatments                 38,311,203          38,311,203           38,311,203         38,311,203
Equals Estimated
Billing Units
per Treatment                              0.529             43.424                0.189              13.29
Multiply by:
HCPCS Billing Unit                 1 microgram             100 units      12.5 milligrams        1 milligram
Equals Estimated
Average per
Treatment Utilization         0.529 micrograms        4342.41 units       2.36 milligrams   13.29 milligrams




   Medicare and Beneficiaries Could Save Millions If Dialysis Payments
   Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)                               22
             APPENDIX G: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
~~&¥1Cf;f~




t~J-           DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                                       Administrator
                                                                                       Washington, DC 20201




             DATE:              APR - 4 2013
             TO:             Daniel R. Levinson
                             Inspector General

             FROM:


             SUBJECT:        Office of Inspector General (OIG) Draft Report: Medicare and Beneficiaries
                             Could Save Millions If Dialysis Payments Were Adjusted for Anemia
                             Management Drug Utilization (A-01-12-00522)


             The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
             comment on this OIG Draft Report. The objective of this study was to determine the potential
             cost savings to Medicare and beneficiaries of adjusting, or rebasing, the End Stage Renal Disease
             (ESRD) Prospective Payment System (PPS) base rate to reflect calendar year (CY) 2011
             utilization of anemia management drugs Epogen, Aranesp, Venofer and Ferrlecit. OIG's report
             estimates that Medicare and beneficiaries could have saved $510 million for the Erythropoiesis­
             stimulating agents (ESAs), Epogen, and Aranesp, and $19 million for the iron supplements
             Venofer and Ferrlecit during calendar year (CY) 2011 if the ESRD PPS base rate had been
             adjusted to reflect current utilization of anemia management drugs. Additionally, OIG's analysis
             of the sample claims in CY 2011 identified inaccuracies in the quantities of drugs claimed and
             noted an inability to determine the extent of drug waste or overfill usage. CMS appreciates
             OIG's efforts in working with us to help identify potential vulnerabilities in our payment
             systems, as well as billing issues and associated coding errors. CMS's responses to OIG's
             recommendations are discussed below.

             Recommendation 1

             The OIG recommends that CMS adjust the bundled base rate to realize program savings
             associated with decreased utilization of ESAs and iron supplements.

             CMS Response

             The CMS concurs with this recommendation. Section 632 of the American Taxpayer Relief Act
             of2012 requires the Secretary to reduce the single payment amount for ESRD services beginning
             in 2014 based on the Secretary's estimate of the changes in utilization of drugs and biologicals
             from 2007 to 2012. CMS will be completing its analysis and providing a proposal for public
             comment in the CY 2014 ESRD PPS proposed rule that specifically addresses this issue.




             Medicare and Beneficiaries Could Save Millions If Dialysis Payments                                 23
             Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)
Page 2 - Daniel R. Levinson


Recommendation 2

The OIG recommends that CMS remind dialysis facilities of the importance of claims accuracy.

CMS Response

The CMS concurs with the recommendation. In the CY 2012 ESRD PPS final rule (76 FR
70244), we noted that the same policy for billing of Part B drugs applies under the ESRD PPS.
ESRD facilities may only report units and charges for drugs and biologicals actually purchased.
Additionally, CMS is in the process of updating the Internet Only Manuals: Pub. 100-02,
Medicare Benefit Policy Manual, Chapter 11, End Stage Renal Disease (ESRD), to reflect the
new ESRD PPS. Section 20.3 of this manual will mirror the CY 2012 ESRD PPS final rule by
reiterating that Medicare will not pay for additional medications (or intentional overfill) in drug
containers provided at no cost to the ESRD facility, and that ESRD facilities may not receive
additional payment under the ESRD PPS when they furnish drug overfill to Medicare
beneficiaries. Furthermore, CMS will provide additional educational guidance reminding ESRD
facilities of the importance of submitting accurate claims.

Recommendation 3

The OIG recommends that CMS develop new policies, procedures, or other guidance for
recording drug waste and overfill on ESRD claims.

CMS Response

The CMS concurs with this recommendation. While it may not be feasible to include non-paid
items on the ESRD PPS claims, CMS concurs with the importance of providing guidance to
providers, specifically ESRD facilities, and developing policies on the importance of claims
accuracy. CMS will also consider ways to capture this data. As mentioned above in CMS's
response to OIG's second recommendation, CMS is in the process of updating Pub. 100-02,
Medicare Benefit Policy Manual, Chapter 11, ESRD, to reflect the new ESRD PPS, including
stating that Medicare will not pay for additional medications in drug containers provided at no
cost to the ESRD facility, and that ESRD facilities may not receive additional payment under the
ESRD PPS when they furnish drug overfill to Medicare beneficiaries. Again, CMS will provide
additional educational outreach to ESRD facilities, on the importance of submitting accurate
claims.

The CMS thanks OIG for the work done on this issue and looks forward to working on this and
other issues in the future.




  Medicare and Beneficiaries Could Save Millions If Dialysis Payments                                 24
  Were Adjusted for Anemia Management Drug Utilization (A-01-12-00522)
